<html>
<title> - KEEPING OUR PROMISES TO WEST VIRGINIA'S SENIORS: STRENGTHENING THE AGING NETWORK</title>
<body><pre>[Senate Hearing 112-421]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-421
 
  KEEPING OUR PROMISES TO WEST VIRGINIA'S SENIORS: STRENGTHENING THE 
                             AGING NETWORK

=======================================================================


                                HEARING

                               BEFORE THE

                       SPECIAL COMMITTEE ON AGING

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS


                             SECOND SESSION

                               __________

                             CHARLESTON, WV

                               __________

                           FEBRUARY 13, 2012

                               __________

                           Serial No. 112-13

         Printed for the use of the Special Committee on Aging


         Available via the World Wide Web: http://www.fdsys.gov
                       SPECIAL COMMITTEE ON AGING



                  U.S. GOVERNMENT PRINTING OFFICE
73-971                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     HERB KOHL, Wisconsin, Chairman

RON WYDEN, Oregon                    BOB CORKER, Tennessee
BILL NELSON, Florida                 SUSAN COLLINS, Maine
BOB CASEY, Pennsylvania              ORRIN HATCH, Utah
CLAIRE McCASKILL, Missouri           MARK KIRK III, Illnois
SHELDON WHITEHOUSE, Rhode Island     DEAN HELLER, Nevada
MARK UDALL, Colorado                 JERRY MORAN, Kansas
MICHAEL BENNET, Colorado             RONALD H. JOHNSON, Wisconsin
KRISTEN GILLIBRAND, New York         RICHARD SHELBY, Alabama
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      SAXBY CHAMBLISS, Georgia
                              ----------                              
                 Debra Whitman, Majority Staff Director
             Michael Bassett, Ranking Member Staff Director


                                CONTENTS

                              ----------                              

                                                                   Page

Opening Statement of Senator Joe Manchin III.....................     1

                           PANEL OF WITNESSES

Statement of Shelley Moore Capito, U.S. Representative, Second 
  Congressional District, WV.....................................     3
Statement of Kathy Greenlee, U.S. Assistant Secretary for Aging, 
  U.S. Department of Health and Human Services, Washington, DC...     4
Statement of Suzanne Messenger, State Long-Term Care Ombudsman, 
  West Virginia Bureau of Senior Services, Charleston, WV........    15
Statement of Brenda Landers, Director, Metro Area Agency on 
  Aging, Dunbar, WV..............................................    17
Statement of Janie Hamilton, Director, Kanawha Valley Senior 
  Services, Charleston, WV.......................................    19
Statement of Helen Matheny, Director, Alzheimer's Outreach and 
  Registry Program, Blanchette Rockefeller Neurosciences 
  Institute, Morgantown, WV......................................    22
Statement of James Clagg Volunteer, Milton Senior Center, Milton, 
  WV.............................................................    24

                                APPENDIX
                   Witness Statements for the Record

Kathy Greenlee, Assistant Secretary for Aging, U.S. Department of 
  Health and Human Services, Washington, DC......................    38
Suzanne Messenger, State Long-Term Care Ombudsman, West Virginia 
  Bureau of Seniors Services, Charleston, WV.....................    49
Brenda Landers, Director, Metro Area Agency on Aging, Dunbar, WV.    56
Janie Hamilton, Director, Kanawha Valley Senior Services, 
  Charleston, WV.................................................    64
Helen Matheny, Director, Alzheimer's Outreach and Registry 
  Program, Blanchette Rockefeller Neurosciences Institute, 
  Morgantown, WV.................................................    69
James and Ellen Clagg, Volunteer, Milton Senior Center, Milton, 
  WV.............................................................    75


  KEEPING OUR PROMISES TO WEST VIRGINIA'S SENIORS: STRENGTHENING THE 
                             AGING NETWORK

                              ----------                              


                       MONDAY, FEBRUARY 13, 2012

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Charleston, WV.
    The Committee met, pursuant to notice, at 9:46 a.m. in the 
1st Floor Ceremonial Courtroom, W. Kent Carper Justice and 
Public Safety Complex, Hon. Joe Manchin presiding.
    Senator Manchin [presiding].
    Also present: Representative Capito.

          OPENING STATEMENT OF SENATOR JOE MANCHIN III

    Senator Manchin. Good morning. How are you all? Thank you 
all for coming. We really appreciate it.
    Miss, are you ready? I can see we can start.
    First of all, let me welcome all of you. I want to thank 
Congresswoman Capito for being with me. I want to thank Senator 
Rockefeller's office. Rocky is here, and their representatives 
are here, and my office is with me. I have Lauren Alfred with 
us, our senior age consultant, if you will. She runs our aging, 
our Medicaid and Medicare health care, and also education. So 
Lauren does a great job. We appreciate her.
    I now call this Special Committee on Aging hearing to 
order, and I want to thank all of you for coming. I'm pleased 
to have the opportunity to bring the Aging Committee to West 
Virginia to discuss commonsense ideas for the future of senior 
services in this country, because in West Virginia we know how 
to set our priorities around our values, and I think we've done 
it well with the services we give.
    As many of you know, when I was governor, we set a budget 
that got our fiscal house in order, but we did so while 
prioritizing our seniors and increasing resources for senior 
services by 83 percent. I have Sandy Vanin with us. Sandy was 
my senior director at that time, and we really put our money 
where our mouth was. We placed food trucks in all 55 counties. 
We targeted funding for Alzheimer's, respite care and elder 
watch programs, provided seniors with the support they needed 
to continue to live in the comfort of their own homes, and I am 
proud of what we have done in West Virginia, and I am committed 
to bringing these commonsense lessons to Washington so that we 
can keep our promises to our greatest generation.
    In recent years, the need of senior programs and services 
has only increased as our seniors are living longer and facing 
difficult economic times. Last year, the first of the 77 
million Baby Boomers turned 65, and now every day for the next 
18 years over 10,000 seniors will turn 65 and become eligible 
for senior services and entitlements. I myself will turn 65, 
and I tried to find out who in my staff put that in.
    [Laughter.]
    They have all denied it, but we think it was Lauren, making 
these issues all the more salient to me. As my generation 
ages--and I don't think that I am; I'm still in denial, and 
we've talked about all this before, I'm having a hard time--
there's no doubt that we will place unprecedented demands on 
the national budget and resources because of my age, not my 
needs right now, thank goodness. Now more than ever, we need to 
be ready to help seniors stay healthy and independent as they 
age.
    Today's hearing will focus on how we can strengthen our 
system of Federal, state, and local senior service agencies 
known as the Aging Network to meet the growing needs and 
challenges of the Baby Boom generation and preserve these 
critical services for future older Americans. If you can think 
about how many times you hear us in government talk about one-
stop shopping, even in the retail private sector, one-stop 
shopping, make it easy and convenient, we want one-stop 
service. I want to make sure that as we grow older, we know 
exactly that we can go one place and find out everything that 
we have available to us, are entitled to, and what we can 
access.
    The Older Americans Act, which was signed into law in 1965, 
funds the majority of programs and supports for our seniors, 
including Meals on Wheels, caregiver help, health promotion, 
elder abuse prevention. Every five years, Congress takes a 
fresh look at programs in the Older Americans Act to assess 
whether they're meeting the needs of the people they serve. 
This year, Congress is due to reauthorize the Older Americans 
Act, and I look forward to bringing many of the ideas and 
comments that we receive today to Washington to improve the new 
bill.
    As Congress revisits this legislation and at the same time 
works to tackle our rising deficit, I believe we must identify 
inefficiencies and redundancies in the system because wasteful 
spending should be the first to go. Our National Aging Network 
is made up of 56 state units on aging, 629 Area Agencies on 
Aging known as AAAs, 20,000 service providers and thousands of 
volunteers. In a system this big, there are bound to be 
inefficiencies and a great deal of room for improvement through 
coordination, flexibility, and innovation. This is one of the 
key issues that we'll address today.
    I have asked stakeholders from across West Virginia's aging 
network, from the state government to local volunteers on the 
ground, to come together to discuss their ideas for bringing 
services to more seniors more efficiently, and you have come, 
and I appreciate that.
    We're also fortunate to be joined by U.S. Assistant 
Secretary for Aging, Kathy Greenlee. Kathy comes from the State 
of Kansas, and the governor of the State of Kansas at the time 
was Kathleen Sibelius, who is now Secretary of DHHS. I worked 
with her as a governor. I know that Kansas has a lot of the 
same concerns and demographics that we have, and I appreciate 
you being here, Kathy.
    I'd like to thank all the witnesses who have joined us here 
this morning. I am eager to hear your thoughts and ideas for 
improving the way we deliver services to seniors.
    What we're going to do, I'm going to turn to my friend and 
colleague, Congresswoman Capito, for her opening remarks now, 
and we will continue with our first panel.
    Congresswoman.

 STATEMENT OF HON. SHELLEY MOORE CAPITO, U.S. REPRESENTATIVE, 
               SECOND CONGRESSIONAL DISTRICT, WV

    Representative Capito. Thank you. I'd like to thank the 
Senator for including me today. This is a great display of 
bicameral bipartisanship.
    Senator Manchin. The way it should be.
    Representative Capito. Yes, the way it should be. But as 
you know, West Virginians are all pretty close, and the Senator 
and I have known each other for a very long time. So I 
appreciate him including me in this.
    I'm just going to briefly say that there is no more timely 
issue for--even though I'm not turning 65 this year, I am in 
that sandwich generation where I have my parents and then still 
my children. They're almost out of the nest, but--well, they're 
out of the nest, but they would like to think--but you know 
what I'm saying here. There's a lot of pressures, and I think 
it's important in terms of coordination of care, of the 
financial resources, the legal issues that you touched on in 
terms of senior financial abuse, the vulnerabilities of our 
seniors, and the transitioning of our parents into a different 
way of living and a different way of coping with their 
situation.
    And as you all probably know, I'm dealing with this very 
personally in my own way with my brother and my sister, and 
there is no single manual that says if you find A, then you do 
B; and once B happens, then you turn to C.
    It is difficult to move through the systems. It's difficult 
to understand what's happening, not just as a daughter but for 
them to understand what's happening. And so this has been an 
educational experience for me, so I really take to heart what 
everybody is going to tell us today and what you all as 
advocates in the audience do every single day to make sure that 
families have access to care.
    If you had a family that didn't--I mean, if you had a 
senior that didn't have a family, and the Senator alluded to 
this, it would just be tragically difficult for that senior to 
try to figure out on their own, or to even know where they are. 
I noticed there's a registry for Alzheimer's patients and folks 
that have been diagnosed. I'm guaranteeing you, it's way 
underestimating what is really going on in this state and in 
this nation, because I can guarantee you neither one of my 
parents is probably on that registry. So we need to talk about 
that.
    But in any event, you can see it's a very personal thing 
for me, so I'm very, very pleased to be here today. We have a 
lot of great resources both at the Federal and state level. We 
just need to make sure that we have the coordination, the 
awareness, the education, because we have the dedication and 
the love and the caring that we need to move forward in this 
very difficult arena.
    So with that, thank you again for including me, and I look 
forward to hearing the witnesses.
    Senator Manchin. Thank you, Congresswoman.
    Before we start, I would like to reiterate what 
Congresswoman Capito said. Her parents, as they are needing 
some services, I can tell you my mother--I would like to know, 
if my mother did not have the family support, if my sister and 
my brother-in-law and my cousins and nephews weren't taking 
care of her on a daily basis, what type of life would she have 
right now? I think that's what I'm trying to find out, because 
I know other people aren't as blessed as I am to have the 
family support that we have.
    And with that being said, that person still deserves that 
love and care no matter whether they have a family or not that 
can do it, and not everybody can do it. So that's really the 
purpose of what we're doing here today.
    So with that, our first witness today is Kathy Greenlee. 
Kathy is Assistant Secretary for Aging at the United States 
Department of Health and Human Services. Kathy Greenlee brings 
over a decade of experience advancing the health and 
independence of seniors and their families. Prior to becoming 
Assistant Secretary, Ms. Greenlee served as Secretary of Aging 
for the State of Kansas, as well as the Kansas State Long-Term 
Care Ombudsman.
    Ms. Greenlee, or better known as Kathy, thank you so much 
for being here, and we look forward to your remarks.

   STATEMENT OF KATHY GREENLEE, U.S. ASSISTANT SECRETARY FOR 
     AGING, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES, 
                         WASHINGTON, DC

    Ms. Greenlee. Thank you, Senator.
    Do I need to turn this on?
    Senator Manchin. No. We have you loud and clear.
    Ms. Greenlee. Very good.
    Senator Manchin. This is the state of the art. Kent Carper 
and the County Commissioner----
    Ms. Greenlee. The light is red.
    Senator Manchin. Oh, it stays red here. It stays red.
    [Laughter.]
    Ms. Greenlee. Thank you, Senator. It's a pleasure to be 
with you today for a special hearing of the Senate Special 
Committee on Aging; and thank you, Representative Capito, for 
also being here to participate.
    This has been a fabulous experience and tremendous honor to 
serve as United States Assistant Secretary for Aging, and this 
is the fourth time I've been able to attend a special committee 
hearing outside of Washington. I also travel the country, visit 
with seniors in all settings, from community services to long-
term care settings, and what you are discussing today is 
happening all across the country, the number of seniors turning 
65, the number of seniors who are now very old and very frail 
who need services and supports.
    In December, I had the opportunity to participate in the 
50th anniversary celebration of the Senate Special Committee on 
Aging. In addition to talking about seniors that day, there was 
something that became very, very clear, something that we all 
know and that is reflected by the two of you joining us today. 
This is not a partisan issue. Aging and aging services, and 
certainly the Older Americans Act, has a history of bicameral, 
bipartisan support. I think it's a non-partisan issue and 
something that affects all of our families, all of our lives, 
and eventually ourselves. And so I just wanted to thank you for 
your leadership by being here to demonstrate that this is 
really about all of us and our families.
    As I work with the Older Americans Act and the aging 
services network, there are a number of significant values that 
I see that we share, helping older Americans and persons with 
disabilities maintain their health and their well-being so they 
are able to live independently with dignity for as long as 
possible. We have developed and implemented person-centered 
approaches. We've supported self-determination, respect, 
empowerment, and inclusion.
    The Older Americans Act helps protect the most vulnerable 
among us, and it helps provide basic respite care and support 
for families so that they are better able to help take care of 
their loved ones, which is what all Americans overwhelmingly 
prefer, that they have the support of their family and their 
friends and their communities as they age in place at home.
    Last year, the national aging services network served 
nearly 11 million seniors and their caregivers, 11 million. 
And, Senator, that network is the one that you described. I 
oversee a very unusual Federal structure where we are very 
small at the Federal level. We send our money directly to the 
States, to the area agencies on aging, to tribal organizations, 
and through that network there are 20,000 service providers who 
provide direct care; in addition to that, thousands and 
thousands of volunteers who do everything from deliver meals to 
provide long-term care ombudsman support. These are the 
backbone of the nation. These are the backbone services that 
provide care.
    Eighty percent of all long-term care in this country is 
still provided by families, and this is how we support this 
vital network. It's also important to note that the key 
distinction of the Older Americans Act is that it complements 
medical and health care assistance. It does not duplicate those 
systems. And this assistance is critical in helping seniors 
remain independent.
    The flagship program that we have, the one that has always 
been the largest through the Older Americans Act has been the 
nutrition program. It's 40 percent of the support that we 
provide to local communities and to States, whether it's home-
delivered meals or congregate meals. But often a meal is not 
enough. The people need other kinds of supports, the kinds of 
supports that you deliver here, transportation assistance and 
rides, bath assistance, in-home supports, caregiver supports. 
Seniors need a complex array of services.
    The first time I testified at a field hearing for the 
Senate Special Committee before Senator Kohl in Milwaukee, not 
surprising since he is the committee chair, and he had someone 
testify there who pointed out something that I had not really 
realized until that hearing, hearing from a consumer who 
pointed out that the Older Americans Act is the original home- 
and community-based service system. It has been around for a 
very long time and is the core strength that we have, often 
supplemented by State dollars to help seniors stay independent.
    Here in West Virginia, in fiscal year 2010, nearly 50,000 
persons over the age of 60 received supports through this aging 
services network. Of that 50,000, 30,000 lived in a rural part 
of the State. This is not a surprise to you as elected 
officials, that we must target the real parts of this State 
because often people are isolated and vulnerable and live alone 
in remote locations.
    We provide rides, home-delivered meals, and support senior 
centers. This assistance is well represented by the panel that 
you have following me, the long-term care ombudsman, the people 
who work for the financial exploitation task force, the people 
who are providing direct services through the area agency on 
aging. This is the core of our network, senior centers are 
where the services are ultimately delivered.
    I tremendously value the area agencies on aging, but I 
think the best place to visit is the senior center, because 
that's where the seniors come for services, supported, of 
course, by the area agency on aging. This is important 
community assistance but is challenged by the number that you 
pointed out, Senator, the number of seniors turning 65 every 
single day.
    Fortunately, I believe we have some time to plan, not that 
we have time to waste, but most people do not need services at 
65, but they need them by the time they're in their late 70s or 
80s, and this is a critical time that we support the services 
that we have.
    The Older Americans Act, which is the program that I'm 
responsible for, helps in three main ways. The Older Americans 
Act programs help Americans with severe disabilities remain 
independent and in the community. We can measure the frailty 
level of the people that we're serving, and we have put 
together one of the measurements that's called a nursing home 
predictor. Without these services, just as you said, Senator, 
what would happen to this individual, and we can tell over the 
course of the years that the people we serve through the Older 
Americans Act are more and more frail, more and more likely to 
need nursing home assistance without these vital community 
supports.
    Our programs are efficient. Our funding has stayed 
primarily flat. But because the money is leveraged at the local 
and community level, we have been able to serve more clients 
with the same amount of dollars. And because of this 
leveraging, the Older Americans Act services help build 
capacity in the network. It was never designed to be the whole 
show, but always an anchor around which you wrap State 
supports, community supports, private support, faith-based 
organizations. This is really, I see, the center beam around 
which we provide a variety of community services. It's always 
meant to be and it's always designed to be a grassroots system, 
as you have reflected here with you today.
    It is important that we continue to make advancements, that 
we take advantage of technology, that we have enough 
flexibility to try innovation. How can we use technology to 
help reach the remote seniors that you have in this State, as 
well as across the country? How can we be innovative in 
providing all of the services that we support and fund?
    As you know, the Older Americans Act is up for 
reauthorization. It was actually up for reauthorization in 2011 
and has not been reauthorized. Senator Sanders on the Senate 
HELP, Pension and Aging Subcommittee, who is in charge of 
reauthorization, is tremendously committed to reauthorizing the 
Older Americans Act, and we continue to work with the Senate 
very closely so that we can move this reauthorization.
    There are some fundamentals that I would like to talk about 
before I close about the Older Americans Act. When I first 
started, I spent most of the first year as Assistant Secretary 
traveling the country to get input from local providers, and 
here's what I learned about the law. It's working. It's not 
broken. And this is an opportunity to talk about the future as 
we talk about the Older Americans Act. There's nothing wrong 
with the law, and this is not a time when we need to go in and 
fix something but go into the law and figure out how it can 
continue to be improved.
    It is the glue that holds the entire national system of 
long-term support together. It is meeting the goals established 
by Congress. It meets the goals of targeting the people who are 
most vulnerable, people who are poor, people who have chronic 
diseases, people who have high risk for nursing home placement, 
people who are frail. It is meeting the objectives, and I 
always look forward to opportunities to figure out how we can 
do more, how we can find more partnerships.
    I will give you an example of one that's not in my 
testimony. We have reinvigorated our relationship with the 
National Institute on Aging to find out what are the best 
evidences that they have on how they can help develop evidence-
based programs that we can deliver through the aging network. 
We are ready to have good science behind the social services 
that we deliver, and the Older Americans Act and its network is 
as strong as ever.
    We are here to partner with you. We believe that the 
pending reauthorization could be passed, needs to be passed, 
and by doing so we can really look at the challenges of an 
aging population that are increasing, help individuals maintain 
their health and independence, and continue to be able to focus 
on the person.
    This is where I'd like to conclude, that the beauty of 
having this particular law is that it's able to do as you 
talked about, Representative Capito, come in and evaluate one 
person at a time regardless of their race or income or 
geographic location, regardless of their situation in life, to 
determine what do they need, what are their frailties, how can 
we provide assistance, and if those change next year, we'll 
provide different additional ones.
    This is the beauty of how this law has always been 
developed, that it is person-centered, that it reflects the 
very unique needs of each individual senior as they age in this 
country. Thank you very much.
    [The prepared statement of Kathy Greenlee appears in the 
Appendix on page 38.]
    Senator Manchin. Secretary Greenlee, thank you so much for 
your remarks.
    Let me preface. I have about three quick points to make, 
and then I'd like to hear your response.
    Before I do that, the most sobering moment I've had as a 
senator was when I sat in the Armed Services Committee and I 
asked at that time Admiral Mullen, who was then chairman of the 
Joint Chiefs of Staff--this is the entire Department of 
Defense, military, everything that protects us in who we are as 
a country--and I asked him, I said what's the greatest threat 
the United States of America has right today? This was maybe 
three or four months ago.
    Now, there's a lot of things I was expecting, an array of 
answers. Was it Al Qaeda? Afghanistan? Iraq? Was it Iran? North 
Africa? Or was it Russia? Or was it China building up their 
military? I could have gotten an array of answers.
    He didn't even flinch. You know what he said? The deficit 
and debt of this nation is the greatest security risk we have 
as a nation. He didn't think there was an army that would pose 
that much of a threat. He didn't think that there was any 
foreign element that would pose a threat to us as a nation.
    But our debt and what we're carrying right now, the 
financial burden--and we've talked about this--if we don't fix 
it--we're now, our debt ceiling is able to go to $16.4 
trillion. If we don't bring this under control--so I'm 
prefacing it by saying what our challenges are and why we have 
to be so much better and smarter.
    We will be the first generation to turn over the keys to 
our children in worse shape than our parents gave it to us. 
We'll be the first. All of us will be guilty to be the first to 
let that happen if we don't stand up.
    With that being said, that's more to the point of what I'm 
going to be asking. We brought all the different people who are 
on the front lines in West Virginia, and you'll hear from them 
in a second panel.
    Can you tell me more, Secretary, about how you're building 
collaborative partnerships with Federal and state community, 
how you're looking for that efficiency, and basically the point 
of service where it gets the most traction, if you will, the 
most good to the people?
    Ms. Greenlee. Let me answer your question in two parts and 
first talk about the debt part, the financing part that you 
prefaced.
    What we know, those of us who provide services through the 
Older Americans Act systems, the people behind me who provide 
these services, is that if these services were not in place, 
many, many people would then become reliant more quickly or 
eventually on public programs; that it's very important that we 
help--Older Americans Act services are cost effective, they're 
fairly inexpensive, and they can help someone stay in their 
community for as long as possible.
    Once someone has to leave and go to a nursing home that 
type of care in that setting is tremendously expensive, and 
many people who get to the nursing home spend down within the 
first year and become eligible for Medicaid. So from both good 
people policy and good fiscal policy, community services are 
much more cost effective, and I think that's the real value 
that we have in providing Older Americans Act services.
    But the world has become increasingly more complex for 
seniors to navigate between the VA and Medicare and Medicaid 
and these local services. The way the Administration on Aging 
has been addressing this was first realized in the mid-2000s. 
In the 2006 reauthorization of the Older Americans Act, we 
implemented for the first time aging and disability resource 
centers. All of your area agencies on aging here in West 
Virginia participate as aging and disability resource centers.
    And the best way for me to describe to you what that is, 
it's a capability or a quality that the people in that resource 
center can help someone access everything they need in the 
community, whether its community supports from the government, 
whether it's social service supports in the community. What we 
have known in the aging services network for decades is that 
our best asset is sometimes not the services we deliver but the 
knowledge in our brains about how we put together services and 
supports, formal services, informal services.
    What the aging and disability resource centers do is the 
piece that you're recommending. How do we have a one-stop shop, 
someplace where there's one person who an individual can call 
so you can say, oh my goodness, I don't know where to even 
begin. Where there's someone who can do an assessment of the 
loved one if they need it or help provide support for the 
family caregiver, or help figure out if there are other 
government services or other kinds of assistance that the 
senior may need?
    It is an extremely complicated system, and often people 
will--I think people arrive at that system one of two ways, in 
a crisis where mom falls and breaks a hip and the mom is at the 
hospital, or with a family who has a senior who continues to 
age and need more and more care at home. We can provide 
assistance for all those scenarios.
    Senator Manchin. Certainly with the budget crisis that 
we're facing in Washington, we've been blessed in West Virginia 
and we have our house in pretty good order, if you will, and 
they're working on making it even better, but the challenges 
are still there. But in Washington, knowing that we're going to 
be facing some--every agency is going to be asked--every agency 
is going to say, yes, but we're much more important, so we want 
you to protect us; if anything, increase our funding. We're 
going to have to make the hard realization that everybody can 
work better and more efficiently.
    Where do you see the efficiencies that you could, in your 
crystal ball, looking at where you're seeing it from 40,000 
feet now being in Washington, looking down at what every agency 
is facing, how can we provide more services to more seniors 
probably more efficiently, cut out the waste, fraud and abuse? 
The GAO last year said $125--we knew that $125 billion was 
misspent on most of our social services. When I say that, the 
abuse, fraud, and waste that went into it. And when I went to 
Washington, the first time I was there, they were going to cut 
Head Start, the poorest of our children. They were going to cut 
Social Security. They were going to cut Medicare and Medicaid. 
I think who else is left to throw under the bus?
    But if we could run it more effectively and more 
efficiently, can we get better services and still have the 
responsibility of our budget crisis that we're having? How 
would you recommend and where do you see we can go?
    Ms. Greenlee. Senator, I am a long-time public servant as 
well, two decades in public service at the state level and the 
Federal level. I agree with you but also would like to, point 
out one key fact with regard to the programs that I run.
    The Older Americans Act at the Federal level is a 
relatively small investment. My budget on an annual basis will 
sound big in West Virginia dollars, are real dollars, $1.6 
billion. That's my annual budget. That's roughly what Medicare 
pays each and every business day in this country every year. So 
it is very small, and I always am concerned and responsive when 
people talk about fraud and abuse.
    We have program integrity measures. Every couple of years 
there will be a provider in our network that runs off with some 
money. But this is not a network that's replete with fraud and 
abuse. It's not a network that drives significant enough 
dollars to attract criminals. It's just really small.
    I think the best way that we leverage the resources is to 
partner with our bigger Federal partners. I believe there's a 
relationship, or there needs to be improved relationships 
between community services and medical services, for example, 
that the doctors and the hospitals provide something as basic 
as care transition to their home so people discharged from a 
hospital know about these local services and the need to help 
support the local services.
    We have built silos of care, whether it's acute medical 
care or long-term care or community services, and the most 
holistic approach is to stitch them together so you've got one 
person who needs a little bit of community services, who needs 
a little bit of long-term care support, and they occasionally 
need to see the doctor or go to the hospital.
    The opportunities in the Affordable Care Act that I see are 
for us to be innovative. I also think we have to look in other 
directions. I spend a great deal of time talking to my 
colleagues at the Health Resources Services Administration. 
There are Federally-qualified health clinics all around this 
country, and I have found since I came to Washington something 
that concerns me, which is there are parts of the country where 
the Federally-qualified health clinic doesn't know the area 
agency on aging, and they're all providing services to seniors.
    So we have to do an increasingly better job of outreach 
both at the Federal level and at the community level to make 
sure that we can help seniors navigate all of these systems, 
because of the Federal budget and the strain on the State 
budgets, our budgets are not growing. They're remaining 
relatively flat, and we have more need.
    Senator Manchin. A final one before I turn it over to my 
colleague. As you know, West Virginia is a small state, and we 
have about 15 percent of our population over 65 years of age, 
which makes us the second most aged state in the nation on a 
percentage basis.
    With that, under the Older Americans Act, the funding is 
done based on size and not specifically on need, mostly in the 
nutrition. I'll tell you where I'm coming from. In nutritional 
services, Florida receives 10 times more dollars than we do but 
only serves four times more meals than we do, and that just 
seems inherently unfair, and that's what we're seeing based on 
need. And we're doing a heck of a job, but we have an awful lot 
of people in a rural area that depends on us.
    So we're out there working and going out and being able to 
provide these services. So we're saying can fairness be brought 
to that system? Funding solutions and what you're saying, the 
story you just told us about efficiencies that you have, you 
need to tell that story more. When you start saying that we 
spend every day $1.6 billion in Medicare, and your total annual 
budget to help all 50 states and the territories is only $1.6 
billion, it pretty much sends a message.
    With that, we all still have to look for our efficiencies 
if we can do something better. But with what I just pointed out 
to you, the inequity in the system, the way the monies are 
spent, taking into consideration--I don't think they do--the 
rural state, the Older Americans Act--the ruralness of our 
state, the amount of people we're serving, and the dependency 
that people have, how would you approach that?
    Ms. Greenlee. Senator, the money that we have through the 
nutrition program, both on the congregate side and in the home-
delivered program, is administered through an interstate 
funding formula to every State based on the number of people in 
the State over the age of 60. So it is a demographic 
distribution based on the people over the age of 60.
    But to respond to the point that you made, which is what if 
we're serving more meals, we also have a smaller nutrition 
program that's not as well known, which is the Nutrition 
Services Incentive Program, which follows along afterward to 
help provide incentives and reward people who do the most with 
the money that they get, who serve more people with that money.
    You are a particularly rural State. The Older Americans Act 
requires that the State and the area agencies target certain 
populations, and in West Virginia you would automatically 
target rural. In Florida, they have larger numbers of people of 
color and minorities. They're also listed as a high-profile 
State. There are States that have people who are also remote. I 
could talk to my friends in Alaska who also have tremendous 
transportation challenges.
    So we do a base funding, and then we follow along to reward 
incentive because each State has kind of a slightly different 
high-needs area that they're serving.
    Senator Manchin. Thank you so much, Kathy.
    And now for Congresswoman Capito's questions.
    Representative Capito. Thank you. I'm just going to follow 
briefly up on what the Senator said. With the $1.6 billion, if 
you could just kind of walk me through, that's the Older 
Americans Act appropriation for annual appropriation.
    Ms. Greenlee. Yes.
    Representative Capito. So then parts of that is nutrition? 
How does that fold out, just really briefly? How does that fold 
down to the state? Because you said mostly it is then just 
pushed out to the states. So we're different pockets. Obviously 
nutrition is, what, about 40 percent of your budget?
    Ms. Greenlee. It's about 40 percent of our program dollars. 
Most of the money that we have is distributed based on a 
formula. So we have some competitive grants. We've done a lot, 
for example, in the field of Alzheimer's and some other 
evidence-based programs. Almost all of the money is sent to the 
states based on the Census.
    Representative Capito. So there's nutrition. And then what 
would your other pockets be?
    Ms. Greenlee. Then we have in-home supports.
    Representative Capito. Okay.
    Ms. Greenlee. We have nutrition. We have the family 
caregiver program. We have some smaller parts. It's probably 
the smallest one we have, for health promotion, where we're 
doing a lot of chronic disease management, preventive services, 
as well as in Title VII, the Elder Rights Program, where we 
have some targeted efforts for elder abuse, long-term care 
ombudsman, and legal services. Those are divided out per State, 
per capita, based on the population of 60 or older, which is 
the age of eligibility.
    We also have some smaller programs that are directed 
specifically to Native American programs, Alaska Natives, 
Hawaiian Natives. There's a nutrition program, a family 
caregiver program, and, of course, we have a direct government-
to-government relationship with the tribal organizations.
    Representative Capito. One of the questions when we were 
speaking with the media before we began was do you just need 
more money? I mean, we're talking about the constraints that we 
have. You mentioned them, too, and where we are for our future. 
So we know that that's the big conversation in Washington now. 
And certainly if you had your wish list of everything you could 
have, more money would probably be at the top of everybody, 
whether it's education, military, whatever the government is 
involved in.
    But it seems like you've accomplished a lot of efficiencies 
with the money that you have. So I guess the message I'm 
receiving is while certainly more money would be great, you can 
still achieve great efficiencies with the $1.6 billion that is 
then granted down to the states. Is that a fair statement?
    Ms. Greenlee. May I address the money first and just point 
out that I was very pleased in FY 2011, Federal fiscal years 
2011 and 2012. The President recommended that the Older 
Americans Act receive an additional $100 million in funding, 
and that was packaged together as a caregiver initiative. 
Roughly half of that money would have gone to provide support 
to family caregivers and half that money to the care recipient.
    Those historic increases, we've not seen that sort of a 
recommendation for a decade for the Administration on Aging. 
Those increases were not realized, that our budgets have been 
flat funded.
    Representative Capito. Do you know what he's doing in--he's 
putting his budget out today, I guess.
    Ms. Greenlee. Yes, but one rule is I don't want to get 
ahead of him. He's announcing his budget in a couple of hours. 
But I will say that these are tough times, and we have seen 
support from both the Secretary and the President regarding the 
value of these particular programs. They don't duplicate other 
programs. They're critical infrastructure. They complement 
other community services.
    Yes, I think there's tremendous unmet need, and we do the 
most that we can to spend these dollars wisely and to partner 
with local communities as well.
    Representative Capito. The other thing I just would 
reinforce, and we talked about this earlier too, is 
particularly in terms of the VA. Just in the brief comments 
that we had before when we were talking earlier and from my own 
personal experience, there's a disconnect between trying to 
figure out how to weave the VA and the Medicare and all the 
other services, whether you have your own private-pay personal 
care situation or hospice or all the different pockets of 
Federal.
    I would encourage you, and you've said this in your 
remarks, that you're coordinating with the VA, because the VA 
has sort of opened up this area as an area of emphasis for 
them. When you look at--I mean, we're losing our World War II 
veterans, but we're going to have our Vietnam veterans, and 
then certainly we want to plan for the folks who are coming out 
now so that when in 40 or 50 years, or 30 and 40 years from 
now, when they are trying to access these systems, the VA has--
and I know the VA is not your bailiwick, but the VA has morphed 
into an area that--and I think they are trying to change where 
they can meet those areas. So I would just encourage that.
    And the other thing is I see Chuck back there from Roane 
County, and another thing I'd like to reinforce, because he 
does this at his senior center, is I like the way he has 
coordinated not just seniors in a building, but he has young 
people in the building, he has small businesses that are--he 
has a rather large building, but he has entrepreneurs who are 
coming in and trying to do building start-ups. He has after-
school care in the building. So it really does reflect more for 
the senior who is getting the care more a community, because 
seniors don't live in a--I don't live in a community of 56--I'm 
going on 58.
    [Laughter.]
    of 58-year-olds.
    Senator Manchin. I didn't want to remind you.
    [Laughter.]
    Representative Capito. Yes. Well, I am younger than you.
    [Laughter.]
    And, you know, seniors don't--the joy that I see, that most 
seniors see when they see a baby or a young child, or even an 
animal, a dog or a cat or a pet or something like that, I just 
think that those kinds of coordinations outside of the umbrella 
of senior care is something that we really ought to look at, 
and I know you all are looking at it, but it's something that 
maybe we ought to put more emphasis on as a nation and create 
communities that are more reflective of the general population, 
which then would lead to general better health, better mental 
health.
    So with that, if you want to comment on that----
    Ms. Greenlee. Just briefly about both. With regard to the 
VA, I completely agree with you. I believe in this network, and 
we do the right thing even when we don't get paid for doing the 
right thing. In 2008, the Administration on Aging began to 
partner with the Department of Veterans Affairs (VA) because we 
had soldiers coming home from the two wars at that point who 
didn't have resources in the community, that the VA had not 
built a home and community-based infrastructure.
    So, because we saw the value of the network, what we could 
provide given our skill set, VA began a brokerage arrangement 
where we said VA, let's introduce you to our network so that 
they can bill directly for their services to the VA. The VA is 
completely committed to this program. It is growing. Every year 
they provide more resources, and they're moving to take this 
nationwide, to use that infrastructure.
    And then on your second point, I never talked about this in 
a hearing before, but I will tell you there are occupational 
hazards in this job, that sometimes it makes you cry. It just 
does, and the people who do this work will tell you, and you'll 
probably start crying for different reasons, so I'll tell you 
about one where I did, and that was December, not last year but 
the year before, when I visited an Alzheimer's program in 
Washington, D.C.
    Right after I began, I started to tour and look at the 
programs in Washington so I would be familiar with what we were 
providing, and we were providing services or are providing 
support to an Alzheimer's program. In that December, they 
brought the children in that were about age 4 to sing, and 
really, you just had to cry. When you see seniors and young 
people together, especially seniors in a nursing home or people 
with dementia, it's just special and very magical, and there 
are many places around the country that also see that, that 
bring together kind of the whole family, the whole community 
because it's valuable to both.
    I think it's helpful to seniors, but I must tell you I 
think it's also helpful to children so that they continue to 
see a positive view of aging and learn all the things we would 
hope that they would learn about their elders. So there are 
wonderful things that we're doing.
    Senator Manchin. Thank you, and thank you, Congresswoman, 
for your questions.
    I want to thank you for your testimony. If you would, 
you're more than welcome to stay right there.
    Ms. Greenlee. Okay, I will.
    Senator Manchin. And then we'll bring the others. I think 
we have enough seats, because I was going to bring you back 
anyway. So rather than sending you back and then bringing you 
back, you just stay right where you are.
    Ms. Greenlee. Okay.
    Senator Manchin. Let me just say, first of all, I want to 
welcome Senator Ron Stallings, Dr. Ron Stallings for being with 
us.
    Ron, if you'd stand up.
    Ron does a great job.
    [Applause.]
    Ron is chairman of the Senate Health Committee. He's a 
practicing physician. He brings a world of practical experience 
to that committee, and I just enjoy working with him.
    Thank you so much, Ron.
    The first witness on the second panel is going to be 
Suzanne Messenger, and I would like for all of our panelists to 
come forward, and I'm going to read a little bio on all of you, 
and then we'll start right down, if you will. We have Brenda 
here, Janie, Helen, and James.
    The first witness on the second panel will be Suzanne 
Messenger, and Suzanne is a West Virginia state long-term care 
ombudsman. I'm sure she'll explain her duties when she starts 
speaking. Her job is to empower seniors and their family 
members to make informed, long-term care decisions.
    Then we will hear from Brenda Landers. Brenda is the 
Director of the Metro Area Agency on Aging, one of West 
Virginia's four regional Area Agencies on Aging. Her agency 
oversees programs delivery in southwestern West Virginia and 
contracts with local senior centers to provide meals, 
transportation, and other services.
    After Brenda we'll be hearing from Janie Hamilton. Janie is 
the Executive Director of the Kanawha Valley Senior Services in 
Charleston. Her organization provides critical programs like 
in-home care, transportation and nutrition services to seniors 
of the Kanawha Valley. Janie is also an only child and 
caregiver of her 83-year-old mother that lives with her at her 
home. So she has the real hands-on experience.
    We'll then hear from Helen Matheny. Helen is the Director 
of the Alzheimer's Disease Outreach Program at the Blanchette 
Rockefeller Neurosciences Institute at West Virginia 
University. The aim for her program is to provide physicians 
with training and tools to improve screening, diagnosis, 
treatment and care of patients with Alzheimer's disease and 
related dementias. Ms. Matheny also serves as a member of the 
National Advisory Council on Alzheimer's Research, Care and 
Services.
    And finally we'll be hearing from James Clagg on behalf of 
himself and his wife, Ellen. James and Ellen volunteer at the 
Milton Senior Center. Ellen serves as assistant treasurer of 
the Center and works with the Center's kitchen. James calls 
bingo every Tuesday and drives the bus on Center trips. James 
and Ellen have been married for 23 years and have lived in West 
Virginia all of their lives.
    So I want to thank each and every one of you for coming and 
taking time to be with us.
    And with that, Suzanne, we'll call on you.

STATEMENT OF SUZANNE MESSENGER, STATE LONG-TERM CARE OMBUDSMAN, 
    WEST VIRGINIA BUREAU OF SENIOR SERVICES, CHARLESTON, WV

    Ms. Messenger. Thank you, Senator Manchin and Congresswoman 
Capito, for the opportunity to testify here today.
    As state long-term care ombudsman, I advocate for the 
rights of long-term care residents with the goal of enhancing 
their quality of life--a lot of living goes on in long-term 
care facilities--and promoting self-determination.
    By devoting our time and resources to the areas of 
preventing financial abuse and ensuring a robust long-term care 
ombudsman program, I believe we can improve the effectiveness 
and efficiency of our aging network and continue our mission of 
person-centered services.
    Although there are many legal definitions of financial 
exploitation, it's basically stealing. It can be the simple 
unauthorized use of a credit card or it can be a really 
complicated fraud scheme.
    In 2010, a MetLife study estimated that the annual 
financial loss suffered by seniors through financial 
exploitation was $2.9 billion. Remember, that's almost twice 
the budget of the Administration on Aging, $1.6 billion, $2.9 
billion stolen from our seniors.
    Exploiters are criminals, but sadly they're often friends 
and family members or others that the seniors thought they 
could trust. It can be even more complicated when the person is 
stealing through legal means, which sometimes happens through a 
durable power of attorney, a legal document that provides them 
access to the senior's money. These cases often come to the 
ombudsman's attention when residents are issued discharge 
notices.
    The perpetrators spend the money. They don't save it. Many 
times the seniors are unaware that it's even happening, and 
they're reluctant to come forward because it's their family. 
They're also under the misunderstanding that this power-of-
attorney representative holds some magic power over them and 
that somehow they can punish them or do something wrong to them 
if they challenge them, when really the reverse is true.
    In order to stay this exploitation, we need better laws, 
and right now our legislature is considering reforming West 
Virginia's power-of-attorney law and enacting the Uniform Power 
of Attorney Act through Senate bill 449 or House bill 4390. 
This will provide some important protections for our seniors 
and agents, and even third parties who rely on that.
    But we also need better education, and Older Americans Act 
programs are great at providing that kind of education, 
education to seniors that they're really the ones in charge 
here. They're the boss, not the agent, and that's sort of 
different from how many of them understand it now. And 
unfortunately, people in the community are under that same 
misconception, and even many attorneys. So we need better 
education to address financial exploitation.
    If we can empower our seniors to take control over their 
money and prevent that, just think the good that we can do with 
$2.9 billion extra in our economy.
    Another way to empower our seniors is by ensuring a robust 
ombudsman program. The long-term care ombudsman program is the 
only Older Americans Act program that's specifically designed 
to serve residents in residential care facilities. Through 
complaint investigation and consultation and information, our 
ombudsman supported residents in exercising their rights, 
staying free from abuse, receiving quality services, and 
enhancing their dignity.
    When one administrator was asked what would be the 
situation if there was no ombudsman program--and this was a 
facility administrator--he said residents would lose a channel 
of communication and support that helps them exercise their 
rights and freedoms.
    Reauthorization and adequate appropriation of the Older 
Americans Act is one way to provide a solid basis for ombudsman 
services. Fully funding the Elder Justice Act, which is a 
complementary act that can provide a strong safety net for the 
ombudsman program and many of its partner agencies, is another 
way to strengthen this. Enabling residents to solve problems 
before they escalate into major issues, helps assure that 
residents have the best quality of life and quality of care 
that they can.
    Preventing financial exploitation and power-of-attorney 
abuse not only protects our vulnerable adults but it also 
allows for a more efficient system based on choice and autonomy 
rather than dependence and fear. Ensuring a robust ombudsman 
program empowers our residents and helps assure quality of life 
and quality of care, which are the hallmarks of an effective 
and efficient senior aging network.
    Thank you for the opportunity.
    [The prepared statement of Suzanne Messenger appears in the 
Appendix on page 49.]
    Senator Manchin. Thank you.
    We'll go down through the witnesses and then we'll go to 
questions, okay?
    Brenda, if you would?

  STATEMENT OF BRENDA LANDERS, DIRECTOR, METRO AREA AGENCY ON 
                       AGING, DUNBAR, WV

    Ms. Landers. Good morning, Senator Manchin, Congresswoman 
Capito, Assistant Secretary Greenlee, and other distinguished 
members of the committee. Again, I'm Brenda Landers, the 
Director of Region 2 Metro Area Agency on Aging, located in 
Dunbar, West Virginia. Again, thank you for the opportunity to 
testify on behalf of the West Virginia Area Agency on Aging. I 
will attempt to explore the history of the AAAs, identify and 
address future challenges facing West Virginia's aging 
population, and provide recommendations for the reauthorization 
of the Older Americans Act.
    West Virginia's AAAs assisted in establishing many non-
profit organizations in the early 1970s. These organizations 
became the county aging programs, offering services such as 
nutrition, transportation, and social services which have 
become very visible and much-needed services in West Virginia.
    The West Virginia Bureau of Senior Services, BOSS, is the 
state unit on aging designated to receive Federal and state 
funds for senior programs. BOSS contracts with the four 
regional AAAs to administer funds from the Older Americans Act 
and the West Virginia Bureau of Senior Services.
    The AAAs develop or enhance comprehensive, coordinated 
community-based systems that serve all 55 counties through four 
regional offices located in Wheeling, Dunbar, Petersburg and 
Princeton, West Virginia. The AAAs contract with aging county 
providers for the provision of meals, transportation, and in-
home services. The AAAs also have a monitoring system in place 
to address waste, fraud, and abuse.
    It's the AAAs responsibility to provide assistance to the 
service providers, as well as to manage and monitor the 
responsible use of Federal funds utilized for specific 
programs. Each AAA employs a monitor and has a monitoring 
review process to determine compliance with the requirements of 
state and Federal funding entities, applicable laws and 
regulations, and stated outcomes. AAA monitoring activities 
include desk audits, review of reports submitted by the 
providers, site visits to review financial and programmatic 
records, and observation of daily operations.
    Regarding the reauthorization of the Older Americans Act, 
on behalf of the West Virginia Area Agencies on Aging, I 
respectfully submit the following recommendations: consolidate 
funding for congregate meals and home-delivered meals to allow 
flexibility and meeting the demands of the affected 
communities; expand the range of Title III services for which 
cost sharing is permitted; and require states to request a 
waiver for cost sharing for nutrition and case management. 
Also, provide additional funds to states as an incentive for 
high performance and achieving program goals. In addition, our 
West Virginia AAAs would recommend an increase in the monies 
for the core Titles of the Older Americans Act; and also new 
use of Federal monies to augment existing state funds for 
ADRCs.
    West Virginia remains one of the oldest states in the 
nation. Planning for the future will make sure the needs of 
senior West Virginians and their families are met. The National 
Area Agency on Aging recommends establishing new provisions 
with dedicated funding, authorizing the AAAs to assist county 
and city governments in preparation for aging in their 
communities. These provisions would authorize funding and 
outline the roles and activities to be performed by full-time 
planner/community organizer position. The new position would 
take the lead role in working with other agencies and 
stakeholder organizations in the development of a comprehensive 
livability plan and implementation strategy.
    West Virginia communities will need to provide an array of 
services, including facilitation of more accessible housing, 
preventive health care, including health and lifestyle 
education, and immunizations and screenings to reduce injuries 
and the onset of chronic diseases, and a range of in-home 
health assistance to keep people in their homes longer.
    The four West Virginia AAAs received a $488,000 grant for 
Money Follows the Person or Take Me Home West Virginia program. 
This program will assist West Virginians as they move from a 
nursing facility or a hospital to a residential setting in a 
community. The West Virginia AAAs recently applied for the CMS' 
Health Care Innovation Challenge in the amount of $7 million. 
The intent of this program is to develop and utilize strategies 
to decrease the behavioral health risks for preventable chronic 
diseases in West Virginia's senior population.
    The AAAs proactively carry out, under the leadership of the 
West Virginia Bureau of Senior Services, a wide range of 
functions related to advocacy, funding, planning, coordination, 
inter-agency linkage, information sharing, brokering, 
monitoring, and evaluations. West Virginia Aging and Disability 
Resource Center plays an integral part in meeting the needs of 
seniors and persons with disabilities. The ADRCs strive to 
reduce consumer confusion and build trust and respect by 
enhancing individual choice and informed decision-making.
    It's important that the ADRCs remain independent since they 
are the first place to get accurate, unbiased information on 
all aspects of life related to aging and living with a 
disability. ADRCs are reaching many consumers who do not 
frequent the county senior centers. There's a great need for 
Federal dollars to accompany state monies to continue the 
ADRCs' mission.
    It's very important that we view seniors and the aging Baby 
Boomer population as community assets, not simply the focus of 
burgeoning cost. West Virginians need to devote more efforts to 
foster job creation and create incentives for employers to hire 
this population. The modern focus of aging no longer remains on 
increasing the quantity of years but rather on enhancing the 
quality of years lived through a balance of physical, mental, 
and social healthful behaviors.
    As West Virginia's 65 and older population increases, it's 
important that individuals have access to an array of services 
that promote physical activity, mental fitness, social health, 
and overall health and wellness support. The provision of 
health promotion and disease prevention programs are essential 
for effectively enhancing the health of our senior population 
while reducing the burden of their health care costs.
    In conclusion, thank you for the opportunity to share with 
you the history and the goals of the West Virginia AAAs and 
their plans to address future challenges to our aging 
population.
    [The prepared statement of Brenda Landers appears in the 
Appendix on page 56.]
    Senator Manchin. Thank you so much, Brenda.
    Janie.

 STATEMENT OF JANIE HAMILTON, DIRECTOR, KANAWHA VALLEY SENIOR 
                    SERVICES, CHARLESTON, WV

    Ms. Hamilton. Senator Manchin, Congresswoman Capito, I'd 
like to thank you and your committee for the vision to come and 
look and hear from us who are advocating for the seniors of our 
country, and especially the State of West Virginia.
    My agency, Kanawha Valley Senior Services, is the county-
level agency that provides social services, in-home personal 
care and assistance through Waiver Medicaid Personal Care, 
Lighthouse, the FAIR program, the VA Homemaker Program, 
Creative Care, which is what we call our private-pay, in-home 
care program, the Family Caregiver Respite and Daycare--we have 
the social model located at the Tiskelwah Center in 
Charleston--and there is also a center, as you well know, at 
the Hansford Senior Center in St. Albans. There are health and 
wellness opportunities, computer literacy, transportation and 
support for 12 nutrition sites in Kanawha County.
    As a local provider, my issue is to absolutely encourage 
you to reauthorize the Older Americans Act. And as Secretary 
Greenlee said, we have a flat funding for the last 10 years, 
and as the Baby Boomers are coming into this area of need, we 
are going to have to look at ways to increase funding. As she 
stated, her budget is very low for the amount of services we 
provide.
    The oldest Americans are the fastest growing segment of our 
population, and that's going to continue for the next 20 years. 
So we really need to look at ways to increase the funding, as 
well as be efficient. We need to allow the cost sharing in the 
in-home care services, as has been already reported. We need to 
add more prevention and health education in all of the three 
program titles of BCMD, as well as Title 8.
    We need to reduce and/or relax the excessive regulations 
and redundant regulations. Sometimes our reporting causes us to 
lose more time and money than we can be reimbursed for, and 
that means every dollar we spend administering programs is a 
dollar less we have in providing service to the seniors 
themselves.
    We definitely need more flexibility in the funding of the 
state units on aging, and we need a mechanism for the 
modernization of senior centers, perhaps adding an incentive 
for Federal community block grants to allocate money to senior 
center modernization.
    You know, 30 years ago, when economies were in much better 
shape, the City of St. Albans reached out and funded their own 
senior center. No other community does that in our state. That 
should have been done. The original intent of the Older 
Americans Act was that the local level would embrace their 
seniors and fund their centers, and that isn't being done, and 
it can't be done now. There's no way we can go back to 
communities and municipalities and say you need to start 
funding your senior center at some level. The levels are very 
low, if any at all. So our senior centers are going to fall 
into disrepair because of the lack of funding because we're 
trying to just provide services.
    At the county level, we don't really have the money to help 
them write their own grants and get monies from other sources.
    As a county agent provider, my mission is to assist our 
aging population in attaining or maintaining a good quality of 
life for their remaining years using the resources available 
effectively. As economic problems prevail, the competition for 
available funds and other resources increase, making that part 
of my job a time-consuming endeavor. I spend way too much time 
seeking out funding instead of managing the programs.
    With the surging boom in our aging adults just beginning to 
skyrocket, as you both alluded to, we are in the early stages 
of a challenge our country has never, ever seen before.
    Another point I would like to make is there's a remarkable 
increase in Boomer generation grandparents raising their 
grandchildren. This is at the same time trying to assist their 
own aging parents. The number of grandparents raising 
grandchildren is increasing, currently 5.8 million children in 
the US. This adds a whole other dimension of need to the aging 
seniors.
    Mental health services is another area of need. We are 
lacking severely in mental health services across the board, 
and right now I meet with 50- to 70-year-old adults whose 
parents are still living but suffering with some type of a 
mental health problem. The aging child doesn't know what to do 
for their parents, and they really don't have the time or 
energy to assist their parents, or even hook them up with what 
may be available for them. They're unprepared to cope, have no 
idea where to turn, and agencies like ours don't have 
advertising dollars. So that's where some of the flexibility 
needs to come in.
    There are seniors facing addicted, mentally unstable adult 
children who are exploiting them, literally stealing their life 
savings out from under them, and they often have their 
medication stolen by family members who are addicted, or 
perhaps they're selling them on the street just for the money. 
Perhaps some funding for policing these things, educating the 
seniors about these things. We've had some movement in that 
area, but it definitely needs to be expanded upon.
    We spend a lot of time in my agency showing proof of 
services. Extreme amounts of time is spent and not always 
reimbursed, again, for those hours. We have the layered 
challenge of complicated reporting requirements and excessive 
hoops to jump through to prove services. It causes us to spend 
money that we can't put toward assisting seniors.
    As an example, the local VA has a slow reimbursement 
turnaround to the point where they're actually paying us 
interest because of their lateness in payments. VA cases are 
randomly assigned. So some more collaboration with the aging 
network and the VA definitely needs to be done so that we can 
bridge these services and work together to serve our senior 
veterans.
    We need more flexibility in all of this. When Senator 
Manchin was our governor the Lighthouse program was developed. 
Right now, it is the most user-friendly service we have 
available. It allows for those who qualify to receive all that 
they need and not limited to personal care only. This is funded 
entirely by the State of West Virginia. There is a waiting 
list, but this model needs to be looked at at the Federal level 
for funding services.
    The Family Caregiver Program is a wonderful program. 
Challenges by family member include availability of time, lack 
of training, their lack of health literacy, personal, physical, 
mental and financial issues, all that causes that adult family 
caregiver a lot of stress and then puts their health at risk. 
The success of the Alzheimer's Family Caregiver Respite 
programs is high, but we definitely need many, many more, as 
I'm sure Helen will attest to in the next few minutes.
    We need to learn best practices and imitate them in all 
communities, and keep funding, if not increase it.
    Community awareness of the symptoms of Alzheimer's is 
another thing, and elder abuse and exploitation, both in the 
urban and rural settings, must increase with some sort of maybe 
anonymous call-in line or a website where reporting can be 
done. We need to train local law enforcement, case management 
and social workers. EMTs and clergy all need to be included in 
awareness trainings that assist in detecting the symptoms at 
the earliest time so that plans for their care can be made by 
the individual before they become incompetent. A lot of times, 
family members don't realize that their parents are 
deteriorating mentally, and therefore they don't say ``You need 
to make those plans for your future care before it's too 
late.'', and then a family member is left to try to guess.
    Transportation is definitely an issue, as you know, in a 
rural setting. We have a hard time providing all that's needed, 
and one thing that would be very helpful is routing software. 
If we had the funding, if there was specific funding or some 
collaboration with companies that provide this type of 
software, we could be much more efficient in our transportation 
efforts.
    As a family caregiver and a sandwich generation 
participant, I'm the only child to my 84-year-old mother. She 
shares my home, and we have taken the steps to make her care 
needs as smooth as possible as they arise. I depend currently 
on the transportation services that my agency provides to get 
her to and from all her medical appointments.
    We live in St. Albans. I work in Charleston now. It is much 
easier for me to meet her at her appointment. I'm her health 
advocate. But if I didn't have those transportation 
opportunities to get her up there, I would really, really be in 
a fix because I do need to work. I have a 20-year-old. That's 
the youngest of four children. And as you kind of mentioned, 
Shelley, kids don't just quit needing you just because they 
become of legal age. And so we're still sandwiched even though 
we don't have grade-school children at home or high-school 
children at home. We're still sandwiched between those two 
needs of our family members.
    My mother enjoys the socialization opportunities available 
at the Hansford Senior Center in St. Albans, and I believe that 
these things have added to her quality of life, and she agrees. 
I couldn't work full time and help raise my children without 
this aging network that is in place, and I cannot imagine 
trying to do this in a rural area of our state.
    So again, I will ask that you look at making sure that the 
Older Americans Act is reauthorized; if not, some funding 
increases put in place, and look at allowing cost-sharing for 
the in-home care programs. We need some support for the 
modernization of our senior centers, which you very well know 
is a very, very local level of quality of life for seniors in 
the area.
    Our future is sure to test our country's ability to rise to 
the occasion and look to the good of those who are in need of 
protection rather than those who are capable of working towards 
their own support. We have had such a rich life here in our 
country. Those who have made this country great are living 
longer in larger numbers than ever before. We owe them all a 
debt of gratitude and all the support they need to spend their 
final years in peace and comfort. Don't forget, our children 
are watching.
    Thank you so much for this opportunity.
    [The prepared statement of Janie Hamilton appears in the 
Appendix on page 64.]
    Senator Manchin. Thank you, Janie.
    Helen.

STATEMENT OF HELEN MATHENY, DIRECTOR, ALZHEIMER'S OUTREACH AND 
    REGISTRY PROGRAM, BLANCHETTE ROCKEFELLER NEUROSCIENCES 
                   INSTITUTE, MORGANTOWN, WV

    Ms. Matheny. Senator Manchin and Congresswoman Capito, 
thank you very much for this opportunity to testify on 
strengthening the aging network. Senator, as you mentioned, I 
serve as the Director of the Alzheimer's Outreach and Registry 
program at the Blanchette Rockefeller Neurosciences Institute. 
The institute is a unique, non-profit medical research 
institute dedicated to the study of memory and memory 
disorders, with its focus on Alzheimer's disease and related 
dementias. BRNI is operated in alliance with West Virginia 
University, as well as in collaboration with other academic 
institutions.
    The Institute's Alzheimer's Outreach and Registry Program, 
the only one of its kind in the country, provides physicians 
with education and tools to improve screening, diagnosis, 
treatment and care of patients with Alzheimer's disease and 
related dementias. The continuing education sessions help 
connect the medical community with local resources to better 
link patient treatment and care, as well as to support 
caregivers through the disease progression.
    The program also maintains the West Virginia Alzheimer's 
Disease Registry. The registry is a secure database that 
compiles demographic, diagnostic, and medical treatment 
conditions information about patients who have been diagnosed 
with Alzheimer's disease or a related dementia.
    As I begin my discussion today, I would like for you to 
keep in mind a few key facts about Alzheimer's disease in West 
Virginia. I know you're well aware that, according to the 
Alzheimer's Association, 44,000 West Virginians age 65 and 
older have been diagnosed with Alzheimer's disease. Also, 
Alzheimer's shares similar risk factors as stroke and 
cardiovascular illnesses, including smoking, high cholesterol, 
obesity and diabetes.
    Efforts to address this devastating disease must be bold. 
Until we find a cure for this disease, I strongly believe we 
need to develop a system of quality care for individuals with 
Alzheimer's disease and related dementias. This system would 
include four key components.
    The first area is detection. It is important to distinguish 
dementia from temporary reversible conditions that may cause 
loss of cognitive functioning. Despite the availability of 
assessment tools, structured assessments for dementia have not 
routinely been incorporated into practice. One solution to this 
challenge is to utilize the Medicare annual wellness visit. It 
requires that detection of possible cognitive impairment be 
included in each visit, potentially resulting in earlier 
detection of dementia.
    The next component is diagnosis and care planning. In 
primary care settings, physicians report insufficient time and 
reimbursement as important causes of misdiagnosis of care. Many 
times physicians will focus on the issue that brought the 
patient in that day. I recommend that Congress pass legislation 
to create Medicare coverage for a package of services that 
covers a clinical diagnosis of Alzheimer's disease, as well as 
care, planning, and coordination for the individual and their 
caregivers.
    Next I suggest we build upon the medical home model and 
utilize technology to enhance quality and care coordination. An 
electronic medical record template could be standardized to 
include screening and diagnostic tools, educational information 
for the patient and caregivers, and links to resources. 
Finally, the system could include tools for advanced care 
planning such as advance directive and medical power-of-
attorney forms.
    The third area of the system is caregiver support. 
Approximately 70 percent of individuals with Alzheimer's 
disease and related dementia live at home and receive care from 
family and friends. In 2010, more than 105,000 Alzheimer's 
caregivers in West Virginia provided more than $120 million of 
unpaid care. I'm sorry, 120 million hours of unpaid care. West 
Virginia is fortunate to have the Family Alzheimer's In-Home 
Respite or FAIR program that can serve as a national model of 
care. I encourage expansion of quality, affordable home- and 
community-based services for individuals with Alzheimer's 
disease and their caregivers by increased funding for programs 
such as our FAIR program.
    Another great resource for seniors is the new 
WVSeniorCare.com website that provides information about 
medical and social services, as well as health care facilities.
    Finally, the fourth component of the system is workforce 
development. This is a critical piece that we must address the 
shortage of physicians, nurses, and other health care 
professionals to improve care for an aging population. Congress 
should explore the increased use of available tools such as 
tuition assistance, loan forgiveness, housing subsidies, and 
stipends that encourage health care professionals to pursue 
specializations in primary care and geriatrics, particularly 
providers who make a commitment to work in under-served 
communities.
    The reality is that there are many West Virginians just 
like the Smiths. Mrs. Smith is 93 years old and is nearly 
blind. She's a diabetic, has congestive heart failure, and is 
in and out of the hospital numerous times a year. Her husband 
has hearing problems, and his vision is impaired due to a 
stroke. The Smiths live in their own home. Because of their 
illnesses, they're on multiple medications and they face high 
deductibles and medical co-payments. The Smiths, like many 
seniors, want and need high-touch, not necessarily high-tech, 
care. They need assistance with chores around the home and 
medication management. The Smiths need and deserve a quality 
system of care.
    In conclusion, I applaud your interest in identifying ways 
we can improve the efficiency and the effectiveness of the 
aging network. I want to thank you, Senator Manchin and 
Congresswoman Capito, for the opportunity to share with you 
suggestions about developing a system of quality care. I look 
forward to continuing to work with you on these issues, and 
I'll be glad to answer any questions.
    [The prepared statement of Helen Matheny appears in the 
Appendix on page 69.]
    Senator Manchin. Thank you, Helen.
    James.

  STATEMENT OF JAMES CLAGG, VOLUNTEER, MILTON SENIOR CENTER, 
                           MILTON, WV

    Mr. Clagg. Mr. Chairman and members of the committee, thank 
you for the opportunity to testify before the Senate Special 
Committee on Aging. We are James and Ellen Clagg. We represent 
the Milton Senior Center and the Cabell County Community 
Service Organization.
    ``Why don't you go to the center with me today? We have a 
lot of fun over there.''
    This is how I was introduced to the Milton Senior Center. 
My wife had been attending for about a year, and she enjoyed it 
very much.
    My first thought was, ``How can a bunch of old people have 
fun?''
    [Laughter.]
    ``What could they possibly be doing?''
    When I started attending the center, the people I met were 
ordinary folks just like us. Some are still living in their own 
homes, but others are living below levels that they would 
prefer. Others are living alone in subsidized apartments, some 
in trailer parks. Most are failing in health and have limited 
income.
    Where or how can they have fun?
    At the senior center, they have a place to become part of 
another family.
    I'm sorry.
    The members may not be blood related. However, each one, in 
time, becomes a brother or a sister within the family.
    We participate in a variety of games, bingo the favorite. 
We work table puzzles, exercising on our machines, have crafts 
to work on, sew, and make lap quilts for the shut-ins.
    The Cabell County Community Service Organization, or CCCSO, 
as we know them, provides a warm meal daily. At this meal, we 
talk and exchange thoughts on any subject that might come to 
mind, a home atmosphere with family members.
    The center provides a number of presentations by locals, as 
well as professionals. Senator Manchin visited us this past 
month and asked for our opinions and shared with us his on 
different subjects currently before Congress.
    We have health screenings at least once a month where blood 
pressure and blood sugar levels are tested at no cost.
    We also have monthly dinners where singers delight us with 
their music. Schoolchildren at Christmas have a wonderful 
program for our enjoyment.
    Fun? You bet. But more than fun. A place where, for a few 
hours, we become a member of our family, members who will 
listen to our gripes, comfort each other in times of sorrow, 
and share in our joys. The center has become a major part of 
our lives.
    In conclusion, we are grateful for the Milton Senior Center 
and CCCSO for all the help they provide the aging residents of 
Milton and Cabell County. We strongly urge you to support all 
senior citizen programs no matter what the organization may be 
called or what state they represent.
    We are one family, all created by God, depending on him and 
each other. As our senator, we need your continued help and 
support.
    Thank you for allowing us this brief time to testify before 
the committee.
    [The prepared statement of James and Ellen Clagg appears in 
the Appendix on page 75.]
    Senator Manchin. Thank you, James, to all of you.
    Before we start our questions, again I want to recognize 
Mrs. Rocky Goodwin, representing Senator Jay Rockefeller here, 
who has been very involved in these issues also.
    Rocky, would you have anything that you want to say?
    Mrs. Goodwin. The Senator apologizes that he couldn't be 
here today. He's been working diligently over the weekend on 
the surface transportation bill. But thanks, Senator Manchin, 
for convening this hearing today, and Congresswoman Capito for 
being here. He asked me to bring back all of the wisdom and 
recommendations of our stellar panel today.
    Senator Rockefeller has a long history with supporting 
issues related to seniors. You may know that under his term as 
governor, we instituted all of the senior programs in every 
county, and he is proud that that has continued.
    Certainly, from hearing from the ombudsman programs about 
the needs that you've expressed here today to the more detailed 
implementation of local programs from the Area Agencies on 
Aging and the county programs, and as you say, it's a family 
program, it's not just a county program in Milton, but also 
across the state, and has worked hard with obviously the 
Blanchette Rockefeller Neurosciences Institute on identifying 
need.
    So the Senator has a staff in Washington, D.C. of 
legislative folks who deal with all of the issues that we've 
discussed today, legal help, the funding issues, and also has a 
number of case workers in the state, and you probably have 
dealt with his folks.
    Please know that the door is always open to receive those 
recommendations that you have, as you here today on the front 
lines have the best information on policy moving forward. So, 
thank you.
    Senator Manchin. Thank you, Rocky, appreciate it.
    Let me start with our questioning now, and I'm going to go 
to each one of you, and I want to thank you again. Then 
Congresswoman Capito can proceed with hers.
    First of all, to Suzanne Messenger, I know you talked about 
the exploitation--and I think, Jane, you did, too--of our 
seniors. Let me tell you how this came to light to me. One of 
my first Aging Committee meetings, Mickey Rooney came, and I 
don't know if you all read about that or heard about that, but 
having a high-profile person like Mickey Rooney that we grew up 
watching every one of his movies and just as a person you 
think, well, they're untouchable, they'll never fall into that 
trap, and when he tells you his story about what happened to 
him by a family member that just about literally wiped him out, 
I think it brought home to me. And I would never think of that 
because, you know, you think your family will take care and you 
don't have to worry about that in your family, but it can 
happen in any family.
    How do you think that the best way to prevent that or 
educate residents and our caregivers? Is it the punishment, the 
laws? Is it the ombudsman overseeing? They don't want to talk. 
I mean, he even told us, he says I didn't want to believe it. 
He said I knew something was going on, and I knew my money was 
gone, but I didn't want to think it was my own flesh and blood 
or someone very close to me that I raised.
    How do we do this?
    Ms. Messenger. I think it has to be a multifaceted 
approach, Senator Manchin, and certainly good laws are a place 
to start. Our legislature is working on----
    Senator Manchin. I guess, Suzanne, what I'm asking, do you 
see a lack? Have we missed laws that should be there? Is the 
punishment not severe enough for the crime they're committing 
in exploiting their own family?
    Ms. Messenger. That's a good question, Senator Manchin, and 
I suspect that's a piece of it. Another piece of it is many of 
us don't realize--the awareness simply isn't there. I think 
Mickey Rooney, one of the best things he did was make it okay 
to talk about these sorts of things and not to think, well, I 
should have known better, that shouldn't have happened to me, I 
did something wrong because now this person has all my money, 
to reach out and ask for help, to get better education among 
the people that help our seniors.
    As I said earlier, many people think that a power of 
attorney gives me some magic power over somebody, and it works 
just the opposite. You have power under the person you're 
supposed to be helping, and I think many of our seniors and 
many of us in this room maybe don't have as good an 
understanding about that.
    It's okay to ask questions, to do better education about 
what happens, and then we absolutely have to have prosecution. 
We have to enable our prosecutors and law enforcement. These 
are complicated cases. They're paper-specific. They take lots 
of bank records. The people that are involved are sick people 
who get sicker and may even pass away before this works its way 
through the court system. So maybe we need to think about 
having an expedited process to address financial exploitation.
    Senator Manchin. The final on that to follow up is that 
basically you talked about drug abuse.
    Ms. Messenger. I don't think that was me.
    Senator Manchin. Okay. I'm sorry.
    Ms. Messenger. I could talk about drug abuse if you'd like.
    Senator Manchin. First of all, it's an epidemic in this 
nation, not just in West Virginia, not just in your county, or 
not someone in your family, because I don't think there's a 
person in this room right now, and I'm one of those people, 
that doesn't know someone in their immediate family or extended 
family, very close, that has not been affected by this. Most of 
it is legal prescription, and I did not realize how many family 
members are taking from their own family, especially their 
grandparents. I just did not realize the severity of this 
problem.
    I don't know what we do on that except I'm thinking of 
this, and you chime in and help me on this, Janie. Let's say my 
mother is on prescription, whatever it may be, probably pain 
relief, a painkiller, and she has to go back because they're 
missing, and she doesn't know if she took too many or what 
happened to them. So she has to go back at more frequent times, 
more frequencies to make sure she has her medication. Now, 
something has happened. A pharmacist right then should be able 
to flag that and know, wait a minute now.
    You see, I don't know what we're lacking. Is there some 
type of reporting, Good Samaritan reporting? Everything doesn't 
have to be criminal, but I know that family members don't want 
to tell on their grandkids or their children that's taking the 
drugs and using them not for the purpose they were prescribed 
to me for. But there has to be somebody that can get us on the 
trail of that to stop that.
    Do you have any recommendations on that?
    Ms. Hamilton. Well, there's a lock box program in place 
that has been funded through some small grants that can be 
effective. But again, you've got a senior that has trouble with 
a medicine bottle, and you have a lock box with a combination 
of some sort, it's good for the storage of the medications 
maybe you don't take very often. There does need to be a system 
in place whereby a responsible caregiver can oversee.
    Oftentimes, pain medication is only taken as needed. So if 
the person has a 30-day supply and they haven't taken but 5 or 
6 throughout the 30 days, if the rest of them are gone and they 
go back for a refill, the pharmacist isn't going to catch that. 
He would assume that person has taken it every day.
    Now, if the pharmacist could stop and say, ``Well, Mrs. 
Smith, I see you've taken 30 of these in the last 30 days. Does 
that mean your pain has increased? Do you need to talk to your 
doctor?'' And get a conversation going. But again, that's going 
to be up to the pharmacist.
    Senator Manchin. Do you all have any conferences with--I 
think we have a tremendous network of pharmacists that do a 
wonderful job. But if they don't communicate and don't know 
what to look for, are you doing that? Could we help facilitate 
that on a state level?
    Ms. Hamilton. We should.
    Senator Manchin. Okay.
    Ms. Hamilton. That's another person on our list of people 
who need to have this awareness.
    Senator Manchin. I got you.
    Ms. Matheny. Senator, there are a lot of items that are 
being talked about right now in that regard. A lot of that 
responsibility falls on the primary care physician or the 
physician who wrote that original prescription. If they go back 
for a refill, that individual should probe and ask questions, 
what happened to the medication.
    The other thing is the database now that we have, the 
pharmacy database, that will be an effective tool in that 
toolbox too, that you can track and see what medications are 
being prescribed.
    Senator Manchin. Brenda, if you will, I know we talked 
about the consolidation of programs and things of this sort, 
and maybe you can tell us a little more about what it would 
mean to your organization if we were able to do some of this, 
how much better services could you do if you could consolidate 
some of them?
    Ms. Landers. Consolidate nutrition? Right now, when we send 
out nutrition funding, they divide it between C1 and C2, which 
is a home-delivered meal or a congregate-setting meal. And at 
that point, if they go over in one, then they have to come back 
to the AAA and say I need to transfer funds. So I think it 
would be easier if the county had that liberty or that 
flexibility to be able just to serve the meals that they need, 
whether it be C1 or C2, because as we've often stated, every 
county is different. I may have a county that has more rural; 
they're going to need more C2. It would just give them the 
flexibility of being able to serve either a C1 or a C2 without 
coming back to the AAA and saying I need to transfer funds. 
Just give them that liberty to serve all the C1 or C2 that they 
need, and then they can bill us. And at the end of that grant 
period, then we can say this amount was served. So it would 
just give them some flexibility.
    They have that ability to somewhat do that now, but then 
they have to come back to the AAA and say, you know, I need to 
transfer funds or I'm going to over-serve in one, and I think 
that time given is at the end of May they lose that opportunity 
to transfer funds. So it would just give them some flexibility 
to be able to serve what they need and not have to designate 
that we want to serve 15,000 C1 and 16,000 C2. If we could just 
give them a little more flexibility, to serve as needed in 
their communities.
    Senator Manchin. Helen, if you could, explain the FAIR 
program. I think you're familiar with the FAIR program. And, 
Kathy, I think that you've heard from everybody about this 
program we started in West Virginia because of the need we have 
and how well it has worked. If you could explain a little bit, 
Helen, about how you think that could be looked upon on a 
larger scale, if you will?
    Ms. Matheny. Well, sure. From what I understand, it is a 
huge success, and it's available in every county in the state, 
the Family In-Home Respite Care program, and it just provides 
families that needed break with trained, screened people to 
come into the homes and to help provide some chores, some 
personal assistant bathing and those types of things. But it's 
a really valuable resource. The legislature increased funding 
last year by $1 million for it. There's still a waiting list. 
But again, I think it could be a national model, something to 
take a look at.
    Senator Manchin. I will say this, Secretary. Our purpose 
for that was to reduce our cost but to give quality care and to 
have people have respect and dignity. We were wearing the 
family members out, and both of us, the Congresswoman and I 
both understand how much care it takes, and we have to have 
competent people. But let's just say the family members were 
trying. They wear out and they give up, and they say I can't do 
it any longer. Well, you know what happens then, and you know 
where the costs go. You just mentioned about the accelerated 
cost that's involved when they come into a nursing home.
    That was the whole purpose, and it has I think worked 
extremely well and been extremely successful. We think it's the 
best, and Sandy Vanin, who was my commissioner at that time, 
really got it going, and we'd be happy to work with you to 
really show you the ins and outs and the things we think are 
great, the mistakes we made, how we could better improve upon 
it.
    Sandy, if you would be helpful if the Secretary would need 
anything, I would appreciate that.
    And finally, James, I want to thank you. I'm going to ask 
you a question. But first of all, you basically said 
everything, and the way you said it is why we're here. It's 
family. Whether you have your blood family with you or not you 
become family. Tell me how you and your lovely wife got into 
the whole volunteering. I guess she kind of brought you along. 
It was contagious, right?
    Mr. Clagg. Right.
    Senator Manchin. How did she get involved? What made her--
--
    Mr. Clagg. She had retired recently, I think, and her 
sister and her are pretty close and they wanted to get out and 
find other activities now that they were retired, and they 
started going over to the senior center. And like I said, they 
came home and told me they had a lot of fun. I couldn't 
understand it, because I was still working at the time.
    [Laughter.]
    Mr. Clagg. I just couldn't understand what was going on. 
But now I see much clearer now.
    Senator Manchin. And you see the quality of life, right? It 
has improved the quality. I mean, people live for that, right? 
That's their family.
    Mr. Clagg. Exactly. They look forward to it every day to go 
to the senior center.
    Senator Manchin. How many of you think that's the only 
nutritional meal they get? Just percentage wise, half of them, 
10 percent, or a majority?
    Mr. Clagg. Well, basically let's say, go with 25 attending, 
I know 3 of the 25 ----
    Senator Manchin. That's it.
    Mr. Clagg [continuing]. That's probably the only meal they 
get.
    Senator Manchin. I know how true that is. And you know how 
hard it is to cook for one person. As you grow older, it's not 
worth the effort.
    Yes, Janie?
    Ms. Hamilton. At the senior center in St. Albans, where 50, 
60, 70 people a day would be a regular number, in the past I've 
seen them, the ones that are alone, take half their lunch and 
package it up to take home to have for dinner. They're there 
every day. So, you know, there's quite a few in that 
department.
    And then the men who are widowed, in that generation the 
wife did the cooking. People go home and don't eat well, if at 
all, because of the fact there's no one there to fix his 
dinner.
    And I know of a veteran who lived alone who is a widower 
who would walk with his walker from his home every evening or 
early afternoon, late afternoon to the Tudor's to get the beans 
and corn bread because that was cheap, and he would eat and go 
back home on the walker, because he wouldn't even call us for a 
ride because of his pride and not wanting to take something 
that he had not paid for. So you have every area of need being 
met at the senior centers.
    Senator Manchin. I would like to have one more, and then 
I'm going to turn to the Congresswoman.
    Secretary Greenlee, if you would, I know Brenda brought up 
the issue of older workers, and we've been blessed with some 
health. When we grow older, we still want to be contributing. I 
think it's very important for us to be productive for as long 
as we possibly can, and think that we've paid our way.
    What are you all doing, or the Administration on Aging 
doing, that can help seniors who really want to work find work? 
Do we have a centralized--in West Virginia, are we networking 
to where a person that's looking for a more experienced--I hate 
the word ``senior''--a more experienced person who has had a 
lot of life experience, can we match them up? Someone who says 
I need this type of person who has had 40 years' experience, 
they might be 65 or 70 years of age, is there anything that you 
know that we link them up in the state, or anything on the 
Federal that could be done?
    Ms. Greenlee. There is one section of the Older Americans 
Act that is not administered by the Administration on Aging, 
the Senior Community Services Employment Program. It's Title V 
of the Older Americans Act, and it's meant to provide support 
to low-income seniors so that they can continue working in the 
workplace. It's often administered at the State level by the 
Department of Labor. That's where it's administered Federally. 
But when it gets to the local organizations, many of them will 
run the Title V program. I took a trip to Los Angeles and met 
many of the people who are getting this support, where seniors 
really need some extra income, to work.
    One of the requirements for the staff who are working to 
help the seniors, the staff in the Title V program, is to also 
work with the one-stop shops from the Department of Labor. So 
if there are seniors who have more resources than the low-
income seniors, you can also get them connected to the one-stop 
system. That's where, in the whole employment universe, they 
are a whole other world in terms of one-stop information 
assistance and employment. You want to make sure that the 
senior programs can address the high-risk populations, but then 
also get to the more mainstream or traditional Department of 
Labor supports for other people who want to stay working.
    We all know, anecdotally and through data, the number of 
seniors, who because of the economy, have had to postpone 
retirement or need to go back to work in order to make ends 
meet.
    Senator Manchin. Thank you all.
    Congresswoman Capito? I'm sorry.
    Representative Capito. Thank you. No, thank you. This has 
been great. I want to thank all of you all who have testified.
    James, I'm going to start with you. Your comments I think 
touched everybody in this room, and obviously you give a lot, 
but you get a lot in return, and I think that's great.
    I will say, as someone who has traveled, I don't go to 
Milton because that's over in Cabell. That's the next county 
over from my district. But when I go to Hansford and others, I 
gain a lot of wisdom that is at the senior center. So when you 
said you sit down for lunch and you saw problems, you could 
probably solve this debt problem for us right off the bat. So 
keep that up. I know that keeps you going, and bring all your 
comments to the senators and your congressmen because we 
appreciate that wisdom.
    You mentioned that there might be 25 people at lunch, and I 
know the Hansford Center has 7. It's probably one of the 
largest ones, certainly. But there are a lot more seniors out 
there that, if they knew or if they maybe could get over the 
fact, like you had in the beginning, what could I really want 
to go to a senior center for, and it was mentioned that there 
was no dollars for advertising the senior center, how do you 
think we get more seniors to the senior center to realize all 
the good things that are going on?
    I mean, obviously, transportation is an issue. But let's 
say that person didn't have a transportation issue. They had a 
family member or something. How would you reach out to those 
folks? Do you have any suggestions for that?
    Mr. Clagg. It would have to be a more one-on-one thing.
    Representative Capito. Word of mouth kind of thing?
    Mr. Clagg. Word of mouth, or members that are already there 
participating spreading the word to others, because when you 
get to my age, and you're soon to be----
    [Laughter.]
    You do not care much about pamphlets being handed out to 
you.
    Representative Capito. Right.
    Mr. Clagg. That's just something you don't understand to 
start with, and it's a waste of time. So there it goes, in a 
bookshelf or something.
    So we need some kind of a one-on-one thing, or just like 
the programs you were talking about, the one-stop shop place, 
that's a terrific idea, terrific.
    Representative Capito. Well, I don't know. I'm just sitting 
here sort of brainstorming and thinking if you had a volunteer 
corps, or I don't know. The press remembers--or the folks that 
are your frequent flyers, to go out and talk to other people, 
because you obviously know well. You can't advertise on the 
Internet because a lot of seniors aren't on the Internet, and 
you can't say how great it is. There aren't blogs around 
talking about what a great time we're having down at the senior 
center. I mean, that is just a generational thing.
    But I will say in terms of technology, one thing that--I 
keep alluding to my own personal situation here. But one thing 
that I found that is a really neat tool for the future are 
iPads for seniors, same as they are for children. I mean, I can 
get my iPad out and show the family pictures, and it is a 
really great way to spend a day. So, anyway, I'll just put that 
little nugget out there. Maybe that's a good Federal-funded 
technology initiative.
    [Laughter.]
    I mean, I know you've got the computers, but there are even 
easier methods now.
    I wanted to ask Suzanne Messenger about the ombudsman. Is 
your program state or federally funded?
    Ms. Messenger. It's a blended program. I'm the state 
ombudsman, and I work for the Bureau of Senior Services. I'm a 
state employee. We get Federal dollars, and we also get some 
matching state dollars. I oversee the contract that the Bureau 
has with Legal Aid of West Virginia.
    Representative Capito. Okay.
    Ms. Messenger. That's the regional office.
    Representative Capito. That's what I was going to ask you. 
What kind of coordination do you have with Legal Aid? Because 
I'm sure your resources are really slim, and to get to this, 
how do you network out from where you are? Through the legal 
community, or does the bar, the West Virginia Bar Association 
help you, or the law school?
    Ms. Messenger. With ombudsman services?
    Representative Capito. Well, just--yeah.
    Ms. Messenger. Not so much with ombudsman services. We have 
a good partnership with our aging and disability resource 
centers. That kind of seems like a natural partnership. The 
aging and disability resource centers, as you've heard many 
times today, are that one stop, sort of that single entry point 
for long-term care.
    Representative Capito. Right.
    Ms. Messenger. And then if there are problems in 
residential care facilities, the ombudsman provides a good 
support.
    Representative Capito. Right, right. And then, Brenda, 
staffing, there's a huge problem. I mean, traditionally low 
paying jobs for caregivers. As soon as they--many times, we 
have the issues with the abuse. If you pick somebody up that 
maybe is not bonded or with an agency, I think you have some 
safety issues and legal issues. Unless you have somebody right 
there--and even if you do, I guess like Mr. Rooney did, it 
still doesn't matter.
    What are you doing to--are you looking--what kind of 
workforce development things are going on right now that are 
going to be able to meet this huge need?
    Ms. Landers. As far as caregivers?
    Representative Capito. Yeah.
    Ms. Landers. We are working on a statewide registry for in-
home workers to know that they've been through proper training, 
that they have looked at background searches and things, and 
that's one thing that we are working on.
    Also, I think it would help with what we talked about, the 
drug abuse, that we have caregivers in the home that we know 
have passed background searches, that they're not stealing 
medications.
    Representative Capito. You know, an individual family can't 
do a background check.
    Ms. Landers. No, but we were working on a state registry so 
that these workers would go through the registry that we have 
somewhat for nurses. Now we have in-home workers that would be 
on this registry that you could go and pick a home worker and 
know that they're qualified and they have all of this, so 
families can pick up the phone and say I need a worker, and we 
have our ADRCs or our aged and disabled resource center that 
could go into this registry and be able to supply a worker.
    Representative Capito. Is there a shortage right now?
    Ms. Landers. Of workers? Yes, because of, as you say, 
because of income. I mean, the wages are just so ----
    Representative Capito. And it's hard work.
    Ms. Landers. It is hard work, and there's lifting and 
there's tugging. We just don't have enough money, but we're 
dealing with it.
    Representative Capito. Then I want to go over to Helen, Ms. 
Matheny, on the medical professionals, because I think one 
thing that--while the primary caregiver has an experience in a 
myriad of different physical and mental issues, because that's 
why they're a general practitioner mostly, but there are 
certain specialized areas that a gerontologist, or in the area 
of gerontology
    Are younger students going into this, medical students, to 
face this challenge? I mean, when you look around the state and 
try to find somebody who is an M.D. that has a specialization 
here, it's scarce.
    Ms. Matheny. Absolutely.
    Representative Capito. Is it getting any better?
    Ms. Matheny. It's not getting any better. The number of 
board-certified geriatricians is very small in the state. And 
so that's why I'm encouraging Congress to help to continue to 
incentivize for that. And in the meantime, that's what we're 
trying to do with our continuing education classes, is to get 
out there to the primary care physicians to provide additional 
training with geriatrics to help them help their patients.
    Representative Capito. I think you mentioned that some 
reimbursement services for these kinds of--when you talk about 
pharmacists, I know this has come up from time to time. Is the 
pharmacist going to get paid for the 15 minutes that they're 
going to work with the senior to find out if they have 
conflicting medicines or do they understand when to take it?
    We went through this with the prescription drug bill when 
it was created in 2003, and I don't think we've solved this 
issue, because in a business that's made on the bottom line, 
time is money, and if you're getting paid to talk--are you 
getting paid to talk and to understand? And a lot of times, the 
first time you say it, you've got to say it more than once and 
in different ways.
    Is this an issue? I mean, Janie, obviously----
    Ms. Hamilton. I have a health background as well, and there 
are a lot of health literacy issues. If I wasn't there to 
advocate for my mother, she wouldn't understand or remember 
half of what she was told, and she's not an ignorant person. 
She's fairly savvy, but the generational thing, the lack of 
health literacy--I mean, there are people across the board, all 
ages that have very low health literacy.
    There's a movement in our state to eliminate that, but we 
have to start not only from the top down but from the bottom 
up.
    Representative Capito. Well, you've asked for flexibility. 
Is this something that you think more flexibility in the 
Federal standards, and state, or either/or----
    Ms. Hamilton. Health care advocacy could be part of the 
aging network if we had the health field and the aging programs 
come together and fund, allow funding for a health care 
advocate for maybe each senior center, at the very least, to 
help do nothing but assist seniors with their communication 
skills with their physician, teach them how to take charge of 
their own health, help them understand what things mean, them 
and/or their family members that are maybe their advocates. A 
lot of times the family member is their advocate, but they 
don't understand it either.
    Representative Capito. Is that different than the SCHIP? 
Because the SCHIP is mostly with the insurance?
    Ms. Hamilton. Yes. That's just assisting the seniors. You 
know, Medicare Part D, my goodness, that's a thing in itself 
that has been--so many seniors are completely just at the mercy 
of whomever they can get to help them make decisions. And a lot 
of times, when they get the letter for open enrollment in the 
mail, they just keep what they've got, and it may not be the 
best thing for them. They don't even understand that they have 
an option. The fact is they have to go through the process of 
getting the counseling through the SCHIP program in order to 
help them find that. There are a lot of complicated things that 
older adults don't understand and need that support to make 
better decisions for themselves.
    Representative Capito. Well, I think this has been a very 
interesting, enlightening panel. One of my colleagues came to 
me last week. She's probably--I don't want to say how old she 
is, 68 or 70 maybe. She looks at me and she goes, ``Guess 
what?'' I said, ``What?'' She goes, ``I'm going to live until 
I'm 100.'' And I said, ``What do you mean?'' And she goes, 
``Well, the statistics are that if you get to a certain age, 
that you're going to live to 100.'' And I'm thinking to myself, 
is that a good thing?
    [Laughter.]
    She says, ``No, it's not a good thing.'' But when you look 
at what Alzheimer's is doing to not only young people but more 
increasingly as people get older, dementia just creeps in no 
matter what, and then to certain degrees we're just going to 
have all kinds of issues, especially if we are living to 100. 
Maybe our bodies are taking us to 100, but our minds have left 
us at 88.
    So it's a challenge, and I think you all have been great 
demonstrators that it can't be solved as a Federal issue no 
matter how aggressive and well funded and good intentioned. 
You've got to have James and Ellen at the senior center willing 
to dedicate their time and energy, and the family members that 
do that, too.
    So I appreciate everything I've learned today, and I 
appreciate all of you all working in this field. I know it's 
rewarding, but it's very tough. So thank you for what you do.
    Thank you, Senator, for including me.
    Senator Manchin. Thank you for being here, Congresswoman.
    And speaking of that, someone told me that if I start 
taking the fish oil pills, that it would help my memory. The 
only thing it's done is give me an urge to go swimming.
    [Laughter.]
    With that, let me just say this. Gaylene Miller, thank you 
so much. AARP, I know you do a great job, and Angela and all of 
you. And I hope this has been beneficial for you, too, because 
we interact so closely with you and your organization. If you 
could keep in touch with us, and also with Secretary Greenlee 
here. That's great.
    And let me just say this to all of you. All of you have 
done a great job, and I appreciate it. The Secretary has been 
so accommodating, and I thank her for her graciousness and 
giving us her time.
    But I don't want her to go back to Washington without at 
least each one of you giving her one recommendation of what 
needs to be fixed in your world, of what you're seeing. 
Something can make it better, and let her evaluate that, 
because if it works here, it will work anywhere. We have more 
challenging demographics, and our topography also, and I think 
I've said that. If you ever are looking for that pilot project, 
you have a theory, you don't have to throw money at us, and if 
we say give us a little flexibility, give us some 
maneuverability and we'll tell you if it works or not, that's 
what we're asking for, Kathy. And I just appreciate so much you 
being here, I really do.
    So on behalf of all of us and all of you who have come, I 
hope it's been enlightening to a lot of you. And you're going 
to be around, I understand, and spend some time, and I would 
challenge you all to please share that with the Secretary 
because she's on the front line. She's going to be the one very 
much involved in the Older Americans Act and how we do this and 
how we go forth, and really basically lobbying for what needs 
to be done for all of us as we grow a little bit older.
    Thank you, and that concludes our hearing.
    [Whereupon, at 11:37 a.m., the hearing was adjourned.]
                                APPENDIX
[GRAPHIC] [TIFF OMITTED] 73971.001

[GRAPHIC] [TIFF OMITTED] 73971.002

[GRAPHIC] [TIFF OMITTED] 73971.003

[GRAPHIC] [TIFF OMITTED] 73971.004

[GRAPHIC] [TIFF OMITTED] 73971.005

[GRAPHIC] [TIFF OMITTED] 73971.006

[GRAPHIC] [TIFF OMITTED] 73971.007

[GRAPHIC] [TIFF OMITTED] 73971.008

[GRAPHIC] [TIFF OMITTED] 73971.009

[GRAPHIC] [TIFF OMITTED] 73971.010

[GRAPHIC] [TIFF OMITTED] 73971.011

[GRAPHIC] [TIFF OMITTED] 73971.012

[GRAPHIC] [TIFF OMITTED] 73971.013

[GRAPHIC] [TIFF OMITTED] 73971.014

[GRAPHIC] [TIFF OMITTED] 73971.015

[GRAPHIC] [TIFF OMITTED] 73971.016

[GRAPHIC] [TIFF OMITTED] 73971.017

[GRAPHIC] [TIFF OMITTED] 73971.018

[GRAPHIC] [TIFF OMITTED] 73971.019

[GRAPHIC] [TIFF OMITTED] 73971.020

[GRAPHIC] [TIFF OMITTED] 73971.021

[GRAPHIC] [TIFF OMITTED] 73971.022

[GRAPHIC] [TIFF OMITTED] 73971.023

[GRAPHIC] [TIFF OMITTED] 73971.024

[GRAPHIC] [TIFF OMITTED] 73971.025

[GRAPHIC] [TIFF OMITTED] 73971.026

[GRAPHIC] [TIFF OMITTED] 73971.027

[GRAPHIC] [TIFF OMITTED] 73971.028

[GRAPHIC] [TIFF OMITTED] 73971.029

[GRAPHIC] [TIFF OMITTED] 73971.030

[GRAPHIC] [TIFF OMITTED] 73971.031

[GRAPHIC] [TIFF OMITTED] 73971.032

[GRAPHIC] [TIFF OMITTED] 73971.033

[GRAPHIC] [TIFF OMITTED] 73971.034

[GRAPHIC] [TIFF OMITTED] 73971.035

[GRAPHIC] [TIFF OMITTED] 73971.036

[GRAPHIC] [TIFF OMITTED] 73971.037

[GRAPHIC] [TIFF OMITTED] 73971.038

[GRAPHIC] [TIFF OMITTED] 73971.039

  

                                  <all>

</pre></body></html>
